No. 19-1212
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CHAD F. WOLF, ACTING SECRETARY
OF HOMELAND SECURITY, PETITIONERS
v.
INNOVATION LAW LAB, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
REPLY BRIEF FOR THE PETITIONERS, via email and first-class mail, postage prepaid, this
29th day of July, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,000
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
July 29, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 29, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank
you for your consideration of this request.

19-1212
WOLF, CHAD F., ACTING SECRETARY OF
HOMELAND SECURITY, ET AL.
INNOVATION LAW LAB, ET AL.
BLAINE BOOKEY
THE CENTER FOR GENDER AND REFUGEE
STUDIES
200 MCALLISTER STREET
SAN FRANCISCO, CA 94102
415-565-4877
BOOKEYBL@UCHASTINGS.EDU
MELISSA CROW
SOUTHERN POVERTY LAW CENTER
1101 17TH STREET, NW
SUITE 705
WASHINGTON, DC 20009
202-355-4471
MELISSA.CROW@SPLCENTER.ORG
KATRINA EILAND
ACLU FOUNDATION IMMIGRANTS' RIGHTS
PROJECT
39 DRUMM STREET
SAN FRANCISCO, CA 94111
415-343-0770
KEILAND@ACLU.ORG
JUDY RABONIWITZ
ACLU FOUNDATION IMMIGRANT'S RIGHTS
PROJECT
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
212-549-2618
JRABINOVITZ@ACLU.ORG

VIA EMAIL

SEAN RIORDAN
ACLU FOUNDATION OF NORTHERN
CALIFORNIA
39 DRUMM STREET
SAN FRANCISCO, CA 94111
415-621-2493
SRIORDAN@ACLUNC.ORG
STEVEN WATT
ACLU FOUNDATION HUMAN RIGHTS
PROGRAM
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
215-519-7870
SWATT@ACLU.ORG
GRACIE WILLIS
SOUTHERN PROVERTY LAW CENTER
150 EAST PONCE DE LEON AVENUE
SUITE 340
DECATUR, GA 30030
404-221-6700
GRACIE.WILLIS@SPLCENTER.ORG

